No. 19-285

 

 

IN THE

Supreme Court of the Anited States

JERUD BUTLER,
Petitioner,
Vv.

BOARD OF COUNTY COMMISSIONERS FOR SAN MIGUEL
COUNTY, ET AL.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Tenth Circuit

BRIEF OF THE GOVERNMENT
ACCOUNTABILITY PROJECT AS
AMICUS CURIAE IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,367 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 3, 2019.

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
